BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Motion for Leave to File Brief as Amici
Curiae and Brief of the Chamber of Commerce of the
United States of America, the Georgia Chamber of
Commerce, and the National Federation of
Independent Business as Amici Curiae in Support of
Petitioners in 20-231, Aladdin Manufacturing
Corporation, et al., v. The Water Works and Sewer
Board of the Town Centre, et al., was sent via Three
Day Service to the U.S. Supreme Court, and 3 copies
were sent via U.S. Mail and e-mail service to the
following parties listed below, this 28th day of
September, 2020:
Thomas Henderson Dupree Jr.
Gibson, Dunn & Crutcher, LLP
1050 Connecticut Ave., NW
Washington, DC 20036
202-955-8500
tdupree@gibsondunn.com

Counsel for Petitioners
Aladdin Manufacturing Corporation, et al.
John W. Scott
Scott Dukes & Geisler, P.C.
211 Twenty-Second Street North
Birmingham, AL 35203
205-251-2300
jscott@scottdukeslaw.com

Counsel for Petitioner
Lexmark Carpet Mills, Inc.

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(8ooi 890.5001

I www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square

1300 I Street, NW, Suite 400E
Washington, DC 20005

M. Jerome Elmore
Bondurant, Mixson & Elmore
1201 West Peachtree Street
Suite 3900
Atlanta, GA 30309
404-881-4135
elmore@bmelaw.com

Counsel for Respondent Dorsett Industries, Inc.
David Christopher Higney
Grant Konvalinka & Harrison
633 Chestnut Street, Suite 900
Republic Centre
Chattanooga, TN 37 450
423-756-8400
dhigney@gkhpc.com

Counsel for Respondent Oriental Weavers USA, Inc.
Rhon E. Jones
Beasley, Allen, Crow, Methvin, Portis & Miles, P.C.
218 Commerce Street
Montgomery, AL 36103
334-495-1131
rhon.jones@beasleyallen.com

Counsel for Respondents The Water Works and Sewer
Board of the Town of Centre, et al.

Stephen E. O'Day
Smith, Gambrell & Russell, LLP
1230 Peachtree Street, N.E.
Suite 3100, Promenade
Atlanta, GA 30309-3592
404-815-3527
soday@sgrlaw.com

Counsel for Respondent Textile Rubber and Chemical
Company, Inc.
Clyde Craddock Owen Jr.
Ball, Ball, Matthews & Novak
RSA Dexter Avenue Building
445 Dexter Avenue, Ste. 9045
Montgomery, AL 36104-0000
334-387-7680
ccowen@ball-ball.com

Counsel for Respondent MFG Chemical, Inc.
Robert Foust Parsley
Miller & Martin, PLLC
832 Georgia Avenue, Suite 1200
Chattanooga, TN 37 402
423-785-8211
Bob.Parsley@millermartin.com

Counsel for Respondent The Dixie Group, Inc.

Mitchell Craig Smith
Miller and Martin PLLC
832 Georgia Ave., Suite 1000
Volunteer Building
Chattanooga, TN 37 402
423-785-827 4
craig.smith@millermartin.com

Counsel for Respondents Engineered Floors, LLC and

J&J Industries, Inc.

Warren N Coppedge Jr.
Coppedge, Michmerhuizen, Rayburn
Attorneys at Law
508 S. Thornton Avenue
Dalton, GA 30720
706-226-0040
warren@coppedgefirm.com

Counsel for Respondent Arrowstar, LLC
David J. Marmins
Morgan E.M. Morrison
Arnall Golden Gregory LLP
17117th Street, NW
Suite 2100
Atlanta, GA 30363
404-8 7 3-8500
david.marmins@agg.com
morgan.morrison@agg.com

Counsel for ECMH dlbla Clayton Miller Hospitality
Carpets and Emerald Carpets, Inc.

Nicholas B. Gorga
Jeremy D. Lockhart
Honigan LLP
660 Woodward Avenue
2290 First National Building
Detroit, MI 48226
313-465-7000
ngorga@honigan.com
jlockhart@honigan.com
Counsel for Kraus USA, Inc.
Gregory A. Brockwell
Brockwell Smith LLC
420 20th Street North, Suite 2000
Birmingham, AL 35203
205-800-8505
greg@brockwellsmith.com
John W. Dodson
Michelle L. Crunk
Dodson Gregory, LLP
2700 Highway 280, Suite 410 E
Birmingham, AL 35223
205-834-9170
jwd@dodsongregory.com
mlc@dodsongregory.com
Counsel for Indian Summer Carpet Mills, Inc.

Meaghan G. Boyd
Alston & Bird, LLP
1201 West Peachtree Street
Atlanta, GA 30309
404-881-7000
meaghan.boyd@alston.com
Counsel for Milliken & Company
Matthew D. Brownfield
Grant, Konva Linka & Harrison, PC
633 Chestnut Street, 9th Floor
Chattanooga, TN 37 450
423-7 56-8400
mbrownfield@gkhpc.com
Counsel for Kaleen Rugs, Inc.
Jeffrey S. Bucholtz
Ashley C. Parrish
Counsel of Record
I. Cason Hewgley IV
King & Spalding LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
202-737-0500
aparrish@kslaw.com
Daryl L. Joseffer
Jonathan D. Urick
U.S. Chamber Litigation Center
1615 H Street NW
Washington, DC 20062
202-659-6000

Charles C. Correll, Jr.
King & Spalding LLP
101 Second Street
San Francisco, CA 94105
415-318-1209
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 28, 2020.

CQ

Donna J. Wb
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

